                                                                 UNITED STATES DEPARTMENT OF COMMERCE
                                                                 Office of Inspector General
                                                                 Washington, D.C. 20230




October 14, 2014

MEMORANDUM FOR:                      Ellen Herbst
                                     Chief Financial Officer and Assistant Secretary for Administration



                                                                                                        ­
                                     Steve Cooper

                                     Chief lnformatio~                       C.cu,_fl,,,~
FROM:                                Allen Crawley                                     -       ~
                                     Assistant Inspector General for Systems Acquisition
                                       and IT Security

SUBJECT:                             Audit of the Department's Cloud Computing Efforts Identified
                                      Contractual Deficiencies-Final Memorandum OIG-15-001-M

The Council of Inspectors General on Integrity and Efficiency (CIGIE) initiated a government­
wide review to evaluate federal agencies' efforts to adopt cloud computing technologies. The
review focused on determining whether contracts that agencies have issued for cloud services
comply with applicable standards. This memorandum provides our findings and
recommendations regarding the OIG's cloud computing audit conducted while participating in
CIGIE's government-wide review.

Background

CIGIE was statutorily established as an independent entity within the executive branch by the
Inspector General Reform Act of 2008 1 to
       • 	 address integrity, economy, and effectiveness issues that transcend individual
           government agencies; and

       • 	 increase the professionalism and effectiveness of personnel by developing policies,
           standards, and approaches to aid in the establishment of a well-trained and highly skilled
           workforce in the offices of inspector general.

In November 2013, CIGIE requested that agencies' Offices of Inspectors General participate in
a government-wide review of the use of cloud services. Inspectors General for 20 departments
and agencies opted to participate in the CIGIE review. The review involved evaluating cloud
service contracts for compliance with applicable contract standards and determining the
agencies' cloud service providers' (CSPs') Federal Risk and Authorization Management Program
(FedRAMP2) status. The memorandum 3 issued by the Federal Chief Information Officer on

1
    The Inspector General Reform Act of 2008, P.L. I I0-409 

2
 FedRAMP is a government-wide program that provides a standardized approach to security assessment, 

authorization, and continuous monitoring for cloud products and services. 

December 8, 20 I I, required that all implemented cloud services must meet Fed RAMP security
authorization requirements by June 5, 2014.

Objectives, Findings, and Recommendations

Our audit objectives were to evaluate the Department's efforts to adopt cloud computing
technologies and to review executed contracts between the Department's bureaus and CSPs
for compliance with applicable standards. We reviewed a selection of cloud service contracts
initiated between Departmental bureaus and their selected CSPs to determine if applicable
contracting language and clauses were included. Our selection consisted of contracts with the
Census Bureau's CSPs Akamai and GovDelivery, National Institute of Standards and
Technology's (NIST's) CSPs Microsoft and ServiceNow, and National Oceanic and Atmospheric
Administration's (NOAA's) CSPs Google, Inc. and Fiberlink. See appendix A for further details
regarding our objectives, scope, and methodology. See table B-1, in appendix B, for the dollar
value and duration for each of the selected contracts.

In the course of our audit, we found that (I) there were deficiencies in the contracts we
reviewed and (2) cloud services did not comply with FedRAMP security authorization
requirements.

     I.      Cloud-Computing Contracts Are Missing Required Clauses

       While the contracts and associated documents such as service level agreements, non­
       disclosure agreements, and terms of service generally include the required language, we
       noted several deficiencies (see table B-2, in appendix B, for detailed findings). Specifically, we
       found:
          • 	 Four of six contracts did not contain the Commerce Acquisition Regulation (CAR)4
              clause (CAR 1352.239-72) that allows OIG access to the contractor's facilities,
              installations, operations, documentation, databases, and personnel used in performance
              of the contract in order to carry out an inspection, investigation, audit, or other review.
       • 	 One of six contracts did not contain the Federal Acquisition Regulation (FAR) clause
           (FAR subsection 52.239-1) that allows an agency access to the CSP's facilities,
           installations, documentation, records, and databases to carry out an inspection program
           to safeguard against threats and hazards to the security, integrity, and confidentiality of
           government data.




3
    Office of Management and Budget, December 8, 20 I I. Security Authorization   of Information Systems in Cloud
Computing Environments. Washington, DC: OMB. 

4These are the Department of Commerce's uniform acquisition policies and procedures, which implement and 

supplement the Federal Acquisition Regulation (FAR). 





                                                           2
    II.      The Department's Cloud Services Are Not FedRAMP-Compliant

      OMB required that all cloud services currently implemented comply with FedRAMP security
      authorization requirements by June 5, 2014. However, we found that only two of the cloud
      services associated with the contracts we reviewed 5 met the FedRAMP deadline-they each
      have a FedRAMP provisional authorization to operate. 6

      Nevertheless, all cloud services associated with the contracts we reviewed have been
      granted authorization to operate by the respective bureaus. 7 As a result, bureau authorizing
      officials should be aware of risks associated with employing the cloud services that do not
      meet FedRAMP requirements. 8

Recommendations

We recommend that the Department's Chief Financial Officer and Assistant Secretary for
Administration

          I. 	 Ensure that all existing and future Commerce bureau cloud service contracts
               appropriately include clauses from CAR 1352.239-72 and FAR subsections 52.239-1.

We also recommend that the Department's Chief Information Officer

      2. 	 Ensure that Commerce bureaus employing cloud services that do not meet FedRAMP
           requirements conduct effective continuous monitoring of the services' security controls
           in order to minimize potential risks.

We have summarized your formal response in this memorandum and included a copy as
appendix C. The final memorandum will appear on the OIG website pursuant to section SM of
the Inspector General Act of 1978, as amended.

In accordance with Department Administrative Order 213-5, please provide us with your
action plan within 60 days of the date of this memorandum. We appreciate the cooperation and
courtesies extended to us by your staff and bureau staff during our audit. If you have any
questions or concerns about this memorandum, please contact me at (202) 482-1855 or Dr.
Ping Sun, Director for IT Security, at (202) 482-6121.


5
 The cloud service provided to the Census Bureau by Akamai, and one of two cloud services provided to NIST by
Microsoft, comply with FedRAMP authorization requirements.
6
  A FedRAMP provisional authorization to operate is an initial approval of the CSP's authorization package by the
Joint Authorization Board UAB) that an executive department or agency can leverage to grant a security
authorization to operate for the acquisition and use of the cloud service within their agency. The FedRAMP JAB
consists of the chief information officers from the Departments of Defense and Homeland Security, as well as the
U.S. General Services Administration, supported by designated technical representatives from their respective 

member organizations. 

7
  We did not evaluate any of the bureaus' security authorization packages as part of our audit. 

8
  OMS has not issued guidance to federal agencies for dealing with CSPs whose cloud services did not meet the 

June 2014 deadline. 





                                                        3
cc: 	   Brian McGrath, Chief Information Officer, Census Bureau
        Joanne Buenzli Crane, Chief Financial Officer, Census Bureau
        Delwin Brockett, Chief Information Officer, NIST
        George E. Jenkins, Chief Financial Officer, NIST
        Zachary Goldstein, Acting Chief Information Officer, NOAA
        Chris Cartwright, Acting Chief Financial Officer, NOAA
        Susan Schultz Searcy, Audit Liaison, Office of the Chief Information Officer




                                                4

Summary of Agency Response and OIG Comments

In response to our draft memorandum, the Department concurred with the overall findings and
recommendations. Further, the Department plans to develop a corrective action plan to
adequately address the risks identified within the draft memorandum.

The Department's response is provided in appendix C.




                                            5
Appendix A: Objectives, Scope, and Methodology

Our audit objectives were to evaluate the Department's efforts to adopt cloud computing
technologies and to review executed contracts between the Department's bureaus and CSPs
for compliance with applicable standards.

Our audit is based on participation in CIGIE's November 2013 government-wide review to
evaluate federal agencies' efforts to adopt cloud computing technologies. In support of the
CIGIE effort, we surveyed bureaus to identify cloud service contracts in place throughout the
Department. We provided summary results of the survey to CIGIE and used survey results to
establish an audit universe of 35 cloud service contracts across 6 bureaus.

Based on our knowledge of and experience with Departmental bureaus, we selected a
nonstatistical sample of six cloud service contracts from three bureaus-the Census Bureau,
NIST, and NOAA-for review. Our selection consisted of contracts with the Census Bureau's
CSPs Akamai and GovDelivery, NIST's CSPs Microsoft and ServiceNow, and NOAA's CSPs
Google, Inc. and Fiberlink.

CIGIE provided matrices (as Microsoft Excel spreadsheet workbooks) for OIGs to use for
evaluating the contracts and providing audit results to CIGIE. We fulfilled specific CIGIE
requests as follows:
   • 	 We obtained copies of selected contracts and supporting information and did follow-up
       with the bureaus to ensure we had the information needed to answer the questions in
       the matrices.
   • 	 Next, we used the information provided by the bureaus to complete the matrix for each
       contract.
   • 	 Then we sent the matrices to the bureaus on May 13, 2014, and received their 

       comments within 3 weeks. 

   • 	 After reviewing bureaus' comments, we made appropriate changes to the matrices and
       sent them to CIGIE, the Department's Chief Information Officer (CIO), and the CIOs of
       the Census Bureau, NIST, and NOAA on June 16, 2014.

CIGIE will use the results matrices provided by participating OIGs to prepare a consolidated
report on the state of cloud service contracts across all agencies represented. We used the
results that we provided to CIGIE as the basis for this audit report.

We conducted our field work from December 2013 to May 2014 at the Department's offices in
the Washington, DC, metropolitan area. We performed this audit under the authority of the
Inspector General Act of 1978, as amended, and Department Organization Order I0-13, dated
April 26, 2013, and in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions.




                                               6
    Appendix B: Departmental Cloud Service Contract Details


         Table B-1. Contract Value and Duration by Bureau and Cloud Service Provider
                                               Census         Census
                                                                                  NIST             NIST               NOAA                  NOAA
                                               Bureau         Bureau
                                                                                   CSP             CSP                 CSP                   CSP
                                                CSP            CSP
                                                                                 Microsoft      ServiceNow           Fiberlinl<           Google, Inc.
                                               Al<amai      GovDelivery


              Total contract value
                                                 2.448             2.44             9.0                 1.35              7.095                4.734
              (millions of dollars)

              Contract duration (years)              4              4               5                    3                 2                    3


            Source: OIG



               Table B-2. Contract Deficiencies by Bureau and Cloud Service Provide.-a
                                                         Census           Census
                                                                                             NIST               NIST               NOAA               NOAA
                                                         Bureau           Bureau
    CIGIE Matrix Question                                                                     CSP               CSP                 CSP                CSP
                                                          CSP              CSP
                                                                                            Microsoft        ServiceNow           Fiberlinl<        Google, Inc.
                                                         Al<amai        GovDelivery


    Does the Cloud contract, SLA, or TOS
    include language allowing the Office of
    Inspector General full and free access to
    the Contractor's (and subcontractor's)
    facilities, installations, operations,                 No              Yes                Yes               No                   No                  No
    documentation, databases, and personnel
    used in performance of the contract in
    order to conduct audits, inspections,
    investigations, or other reviews!b

    Does the Cloud contract, Service Level
    Agreement (SLA), or Terms of Service
    (TOS) agreement, contain FAR clause
    52.239-1, allowing the Agency access to               Yes              Yes          l     Yes               No                  Yes                 Yes
    the CSP's facilities, installations, technical
    capabilities, operations, documentation,
    records, and databases!
I
    Source: CIGIE and OIG
    • A "No" response indicates a deficiency.
    b CAR I 352.239-72(h) contains this language.




                                                                                  7

Appendix C: Agency Response


                                                                                         UNITED STATES DEPARTMENT OF COMMERCE
                                                                                         Office of the Secretary
                                                                                         Washington, D.C. 20230




       MEMORANDUM FOR: 	 Allen Crawley
                         Assistant Inspector General for Systems Acquisition
                                                 and IT Security                            //_     hf-·           ·SEP 3 O_.ZOJ.t
       FROM:                                   Ellen Herbst
                                               Chief Financial Officer
                                                                             f/ft1 /lfJtli(JI
                                                 and Assistant Secretary for Administration

                                              Steven I. Cooper                                  />'!~
                                              Chief Information Officer                         ~
       SUBJECT: 	                             Agency Response to OIG's Draft Memorandum Cloud Computing
                                              Efforts Identified Contractual Deficiencies

       This memorandum responds to the draft memorandum from the Office of the Inspector General
       titled, Cloud Computing Efforts Identified Contractual Deficiencies. The draft memorandum
       identifies deficiencies in contracts for cloud services and notes that several cloud services
       provided to the Department did notcomply with Federal Risk and Authorizations Management
       Program (FedRAMP) security requirements. The Department concurs with the overall findings
       and recommendations outlined within the draft memorandum.                          ·

       Further, the Department will develop and submit a corrective action plan to adequately address
       the risks identified within the OIG's draft memorandum.


       cc: 	                Brian McGrath, Chief Information Officer, Census Bureau
                            Joanne Buenzil Crane, Qbief fin.~cial Officer, Census Bureau
                            Delwin Brockett, Chieflnformation Officer, NIST
                            9~rge E. Jenkins, ~~(F~cial. O.flicer, NIST          .. .
                            Zachary Goldstein, Acting P:iiefI~fopnati1;m9fficer, NOAA
                            Chris Cartwright, Acting ChiefFinancial Officer, NOAA
                     .• r:. · 	                   •.   ~ . ·.·,.   ..~ .    . .. .. · ; .... .; ·• ' . . ::
         ,,'• 1,: .

       •., : , • •      I




                                                                           011200000176




                                                                                    8

